CERTIFICATE OF SERVICE
I, Abdul Mohammed, the Pro Se Petitioner, hereby certifies that on this 14th Day
of August 2020, I caused a copy of the Writ of Mandamus/Prohibition of the
Petitioner to be served by USPS First Class Mail and email to all the
Respondents. I further certify that all parties required to be served have been
served.
Respectfully submitted,
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com

Q8JUI

14

